                                                                    EMPLOYEE BENEFITS
U.S. Department of Labor
                                           SECURITY ADMINISTRATION

                      Office of Inspector General—Office of Audit




                                                                    RECOVERY ACT: EBSA COULD IMPROVE SOME
                                                                    ASPECTS OF ITS IMPLEMENTATION OF THE
                                                                    COBRA PREMIUM ASSISTANCE PROVISIONS




                                                                                              Date:   September 30, 2009

                                                                                          Report:        18-09-003-12-001

U.S. Department of Labor
Office of Inspector General                                  September 2009
Office of Audit
                                                             RECOVERY ACT: EBSA COULD IMPROVE
                                                             SOME ASPECTS OF ITS IMPLEMENTATION OF
BRIEFLY…                                                     THE COBRA PREMIUM ASSISTANCE
                                                             PROVISIONS
Highlights of Report Number 18-09-003-12-001, to the
Assistant Secretary for Employee Benefits Security.          WHAT OIG FOUND

WHY READ THE REPORT                                          EBSA quickly started numerous outreach activities to
                                                             implement the COBRA provisions under ARRA.
                                                             Specifically, EBSA (1) responded to more than 110,000
Health insurance programs help workers take care of
                                                             telephone inquiries related to COBRA premium
their families’ essential medical needs. Until 1986,
                                                             assistance; (2) created model notices to help plan
employer-provided group health coverage was at risk if
                                                             administrators provide notice about the premium
an employee was fired, changed jobs, or got divorced.
                                                             assistance; (3) expanded the EBSA website to include
That changed with the passage of the Consolidated
                                                             COBRA premium assistance information;
Omnibus Budget Reconciliation Act (COBRA) in 1986
                                                             (4) disseminated COBRA premium assistance; and
which gave workers who lost their jobs and health
                                                             (5) expanded enforcement investigations to include
benefits, the right to purchase group health coverage
                                                             ARRA requirements.
under certain circumstances. An employee and his/her
family can retain their group health coverage for up to 18
                                                             However, there are aspects of the outreach program that
months by paying group rates.
                                                             EBSA could improve. Specifically, three of four DOL-
                                                             funded One-Stop Centers we visited did not have
The President signed the American Recovery and               COBRA premium assistance information available. In
Reinvestment Act of 2009 (ARRA) on                           addition, EBSA did not use enforcement results to help
February 17, 2009, to, among other things, provide           evaluate outreach efforts. Finally, EBSA had not
assistance to the unemployed by providing COBRA              developed written resource contingency plans to help
premium assistance. Eligible individuals pay only 35         ensure that it could meet the 15-day deadline for
percent of their COBRA premiums and the remaining 65         deciding COBRA appeals. In addition, electronic copies
percent is reimbursed to the coverage provider through a     of determination letters sent to appellants contained
tax credit. The premium assistance applies to health         unreliable issuance dates. Finally, EBSA’s appeal
coverage beginning on or after February 17, 2009, and        decision was not stated at the beginning of the
lasts for up to 9 months for those eligible due to an        determination letters sent to appellants, which could
involuntary employment termination. ARRA also                make it difficult to locate.
provides for appeals if premium assistance is denied.
                                                             WHAT OIG RECOMMENDED
For COBRA covered plans, the Employee Benefits
Security Administration is responsible for providing         We made five recommendations to the Assistant
outreach and education and reviewing appeals.                Secretary for Employee Benefits Security related to (1)
                                                             increasing outreach efforts by improving coordination
WHY OIG CONDUCTED THE AUDIT                                  with Employment and Training Administration (ETA) to
                                                             ensure ARRA COBRA premium assistance materials are
Our overall audit objectives were to answer the following    displayed and distributed at all One Stop centers, (2)
questions:                                                   using feedback from enforcement investigations to help
                                                             assess outreach efforts, (3) developing a resource
    1. 	 Has EBSA provided outreach related to COBRA         contingency plan, (4) improving controls to assure
         premium assistance?                                 accurate dates are used on applicant determination
                                                             letters, and (5) redesigning the letters sent to appellants
    2. 	 Has EBSA established a system to timely review      to make the determination easier to locate.
         appeals of premium assistance denials?
                                                             In its response, EBSA provided additional information on
                                                             the challenges that EBSA faced and the amount of
READ THE FULL REPORT                                         planning and work invested in implementing the new
                                                             program. EBSA has initiated or planned action on 4 of
To view the report, including the scope, methodology,        the 5 recommendations. However, the Assistant
and full agency response, go to:                             Secretary did not agree with the recommendation to
                                                             develop more detailed resource contingency plans.
http://www.oig.dol.gov/public/reports/oa/2009/
18-09-003-12-001.pdf
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                            EBSA Could Improve ARRA Processes
                                   Report No. 18-09-003-12-001
                                                      U. S. Department of Labor – Office of Inspector General 




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
	

Results In Brief .............................................................................................................. 2
	

Objective 1 — Has EBSA provided outreach related to COBRA premium 

              assistance?........................................................................................... 5
	
         Finding 1 — EBSA has provided outreach related to COBRA premium 

                    assistance but could further improve these efforts............................ 5
	

Objective 2 — Has EBSA established a system to timely review denials of COBRA 

              premium assistance?........................................................................... 8
	
         Finding 2 — EBSA has established a system to timely review denials of 

                    COBRA premium assistance but could make some 

                    improvements ................................................................................... 8
	

Recommendations ...................................................................................................... 12
	

Appendices
         Appendix A Background ..................................................................................... 15
	
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 17
	
         Appendix C Acronyms and Abbreviations .......................................................... 21
	
         Appendix D Auditee Response........................................................................... 23
	
         Appendix E Acknowledgements ......................................................................... 31
	




                                                                                 EBSA Could Improve ARRA Processes
                                                                                        Report No. 18-09-003-12-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                            EBSA Could Improve ARRA Processes
                                   Report No. 18-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General 



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 30, 2009

                        Assistant Inspector General’s Report



Phyllis C. Borzi
Assistant Secretary
 for Employee Benefits Security
US Department of Labor
200 Constitution Avenue, N.W
Washington, D.C. 20210

In response to the American Recovery and Reinvestment Act of 2009 (ARRA), the
Office of Inspector General (OIG) conducted a performance audit of the Department of
Labor (DOL), Employee Benefits Security Administration’s (EBSA) implementation of
the premium assistance for COBRA benefits provided under ARRA.

ARRA was signed into law by the President on February 17, 2009, to preserve and
create jobs, promote economic recovery, and assist those most impacted by the
recession. ARRA provides for premium assistance and additional time for election of
health benefits continuation under the Consolidated Omnibus Budget Reconciliation Act
of 1985 (COBRA). COBRA generally applies to employers with more than 20
employees. ARRA, however, extends the premium assistance to employees of
employers with less than 20 employees if State law provides continuation coverage
similar to COBRA.

The premium assistance applies to workers involuntarily terminated from employment
from September 1, 2008, through December 31, 2009. Eligible individuals pay only 35
percent of their COBRA premiums and the Federal Government reimburses the
remaining 65 percent to the coverage provider through a payroll tax credit.

Furthermore, ARRA allows an individual whose employer denies premium assistance to
appeal that denial to DOL or the Department of Health and Human Services (HHS).
DOL handles appeals related to private sector employers with 20 or more employees
subject to COBRA. HHS handles appeals for Federal, State, and local governmental
employees and appeals related to private sector employers with less than 20
employees subject to State continuation laws. Both DOL and HHS are required to make
a determination regarding the individual’s eligibility within 15 days after receipt of the
individual’s completed application.

Within DOL, EBSA has the responsibility to implement the COBRA-related provisions of
ARRA.

                                                              EBSA Could Improve ARRA Processes
                                             1                       Report No. 18-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General 




Our overall audit objectives were to answer the following questions:

      1. Has EBSA provided outreach related to COBRA premium assistance?

      2. Has EBSA established a system to timely review appeals of premium
         assistance denials?

The audit included EBSA practices, policies, and procedures to comply with ARRA that
were in place or planned as of May 31, 2009, and eligibility appeals received by EBSA
through May 29, 2009. It also included visits to One-Stop Centers in July and August
2009.

To accomplish our audit objectives, we obtained an understanding of the ARRA which
sets forth EBSA’s responsibilities for (1) outreach to educate the employers and
individuals about the availability of COBRA Premium Assistance, and (2) expedited
reviews of denials of COBRA premium assistance in cases where employees file an
appeal when they have been denied COBRA premium assistance under ARRA. We
also reviewed EBSA’s policies and procedures, memorandums, and other documents
implementing EBSA’s ARRA responsibilities.

In looking at EBSA’s outreach program we examined model eligibility notification letters,
training resources, and outreach materials developed by EBSA. We also reviewed the
websites of the state workforce agencies in California, Illinois, Kansas, and Washington,
and a One-Stop Center in each of these states to determine if information on ARRA’s
COBRA premium assistance program was available. Finally, we conducted a telephone
survey of a sample of large employee organizations (e.g., unions, consumer
organizations, and professional associations) to confirm they received and distributed to
their members the COBRA premium assistance materials provided by EBSA.

To determine if EBSA processed eligibility appeals in a timely manner and if EBSA’s
decisions were supported by the available documentation, we examined and tested a
random sample of 68 out of the 1,224 appeals that EBSA received through
May 29, 2009.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audits to obtain sufficient and appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provided a reasonable basis for our findings and conclusions based
on our audit objectives.

RESULTS IN BRIEF

EBSA quickly started outreach activities to implement the COBRA provisions under
ARRA. Specifically, EBSA:

                                                         EBSA Could Improve ARRA Processes
                                            2                   Report No. 18-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General 




   (1) responded to more than 110,000 telephone inquiries related to COBRA premium
       assistance in the first five months after ARRA passage;

   (2) created model notices within 30 days of ARRA passage to help plan
       administrators provide notice about the premium assistance to individuals who
       have a COBRA-qualifying event;

   (3) expanded the EBSA website within three days of ARRA passage to include
       COBRA premium assistance information;

   (4) disseminated COBRA information related to premium assistance and filing of
       appeals using methods such as webcasts, State agency websites, and direct
       mailings to 42 organizations that may have had high numbers of individuals with
       COBRA-qualifying events; and

   (5) expanded enforcement investigations to include ARRA requirements to notify
       eligible individuals of COBRA premium assistance availability.

However, there are aspects of the outreach program that EBSA could improve.
Specifically, three of four DOL-funded One-Stop Centers we visited did not have
COBRA premium assistance information available although the program had been in
place for 5 months. In addition, EBSA did not use enforcement results to help evaluate
outreach efforts. Since the enactment of ARRA (February 17, 2009), EBSA had initiated
173 investigations of health plans. However, EBSA had not established a means to
separately report ARRA violations identified in these investigations or provide this
information to EBSA’s Office of Participant Assistance (OPA) to assess outreach efforts.

Furthermore, EBSA had designed and implemented a process to provide review of
appeals of premium assistance denials. The process was operational the same day
(May 21, 2009) Office of Management and Budget approved the forms to be used. As of
May 29, 2009, EBSA had received 1,224 appeals. Our review of 68 randomly selected
cases identified only one instance in which EBSA had not issued its determination
within 15 business days after receipt of the completed application. In this case EBSA
had sought and received the applicant’s agreement to exceed the 15 days while
eligibility issues were resolved.

There are also aspects of the appeals process that EBSA could improve. EBSA had not
developed written resource contingency plans to help ensure that it could meet the
15-day deadline for deciding COBRA appeals at potentially increased workload or
decreased resource levels. In addition, the copies of determination letters sent to
appellants that were captured in EBSA’s management information system contained
unreliable issuance dates. Finally, EBSA’s appeal decision was not stated at the
beginning of the determination letters sent to appellants, which could make it difficult to
locate.



                                                          EBSA Could Improve ARRA Processes
                                             3                   Report No. 18-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General 



We made five recommendations to EBSA related to (1) increasing outreach efforts by
improving coordination with Employment and Training Administration (ETA) to ensure
ARRA COBRA premium assistance materials are displayed and distributed at One-Stop
centers, (2) using feedback from enforcement investigations to help assess outreach
efforts, (3) developing a resource contingency plan, (4) improving controls to assure
accurate dates are used on applicant determination letters, and (5) redesigning the
letters sent to appellants to make the determination easier to locate.

EBSA Response

EBSA provided additional information that it believed more fully describe the
tremendous challenges it faced and the amount of planning and hard work that resulted
in a smooth execution of the new program. EBSA reports it has addressed a number of
OIG recommendations. Specifically, EBSA agreed to increase outreach efforts by
improving coordination with Employment and Training Administration (ETA) to ensure
ARRA COBRA premium assistance materials are displayed and distributed at One-Stop
centers; and to use feedback from enforcement investigations to help assess outreach
efforts. EBSA also stated it had improved controls to assure accurate dates are used on
applicant determination letters, and redesigned the letters sent to appellants to make
the determination easier to locate.

EBSA however, disagreed with our recommendation to develop a resource contingency
plan and stated it had sufficient, well-documented contingency plans, and had provided
managers with the flexibility to deal with unplanned, undesirable events.

OIG Conclusion

We did not intend to minimize the challenge EBSA faced when charged with
implementing Recovery Act mandates in short time frames. EBSA’s response to the
draft report, which is provided in its entirety in Appendix D, outlined the challenges and
steps EBSA took to meet this challenge. Regarding resource contingency plans, EBSA
did not provide any additional information. We continue to believe more detailed plans
regarding possible resource utilization would help better manage unforeseen workload
fluctuations. (Recommendation 3).




                                                          EBSA Could Improve ARRA Processes
                                             4                   Report No. 18-09-003-12-001
                                    U. S. Department of Labor – Office of Inspector General 



RESULTS AND FINDINGS

Objective 1 — Has EBSA provided outreach related to COBRA premium
              assistance?

Finding 1 — EBSA has provided outreach related to COBRA premium assistance
             but could further improve these efforts.

EBSA quickly started outreach activities to implement the COBRA provisions under
ARRA. Specifically, EBSA:

   (1) responded to more than 110,000 telephone inquiries related to COBRA premium
       assistance in the first 90 days after ARRA passage;

   (2) created model notices within 30 days of ARRA passage to help plan
       administrators provide notice about the premium assistance to individuals who
       have a COBRA-qualifying event;

   (3) expanded the EBSA website within three days of ARRA passage to include
       COBRA premium assistance information;

   (4) disseminated COBRA information related to premium assistance and filing of
       appeals through methods such as webcasts, State agency websites, and direct
       mailings to 42 large organizations that may have had high numbers of individuals
       with COBRA-qualifying events, such as unions, consumer organizations and
       professional associations; and

   (5) expanded enforcement investigations to include ARRA requirements to notify
       eligible individuals of COBRA premium assistance availability.

The public has responded to EBSA’s outreach. As noted above, EBSA’s benefit
advisors have handled more than 110,000 telephone inquiries on COBRA premium
assistance alone, a 35 percent increase in their workload. More than 4,700 separate
groups registered to watch the EBSA webcasts live and more than 5,500 unique
viewers have since watched the archived webcast. The EBSA COBRA premium
assistance web pages have been viewed by more than 1.7 million visitors since being
added to the website.

However, there are aspects of the outreach program that EBSA could improve.
Specifically, three of four DOL-funded One-Stop Centers we visited did not have
COBRA premium assistance information available although the program had been in
place for 5 months. In addition, EBSA did not use enforcement results to help evaluate
outreach efforts. Since the enactment of ARRA (February 17, 2009), EBSA had initiated
173 investigations of health plans. However, EBSA had not established a means to
separately report ARRA violations identified in these investigations and provide this
information to OPA to help assess outreach efforts.


                                                        EBSA Could Improve ARRA Processes
                                           5                   Report No. 18-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General 



One-Stop Centers Did Not Have Information

Three of the four One-Stop Centers we visited did not have COBRA premium
assistance information available. Specifically, these three One-Stop Centers did not
have any posters displayed or make information available to clients regarding COBRA
premium assistance. Staffs at these One-Stop Centers generally were not aware of the
program. While EBSA had distributed the material to the One-Stop Center, there was
no mechanism to assure the materials were made available. The lack of any information
regarding COBRA premium assistance hinders EBSA’s outreach efforts and may impair
eligible individual’s ability to obtain COBRA premium assistance.

As part of its outreach efforts, EBSA worked with ETA on providing information to
workers laid off from their jobs. ETA provides funding under the Workforce Investment
Act to State Workforce Agencies to operate more than 3,200 One-Stop Centers across
the country. One-Stop Centers are designed to provide a full range of assistance to job
seekers, including those recently laid off, under one roof. One-stop Centers serve more
than 500,000 people annually.

Based on interaction with EBSA, ETA issued Training and Employment Notice 42-08 to
State Workforce Agencies on May 1, 2009. This Notice requested State Workforce
Agencies to (1) link their websites to EBSA’s COBRA information page, (2) display
COBRA premium assistance-related posters in their One-Stop Centers, and (3) make
COBRA premium assistance information available to clients. ETA designed these
actions to assist workers, employers, and ETA’s partners in understanding COBRA
premium assistance. Furthermore, EBSA mailed COBRA premium assistance materials
directly to each One-Stop Center.

However, State Workforce Agencies did not fully implement the Notice. During July and
August 2009, we visited One-Stop Centers in San Francisco, California; Renton,
Washington; Chicago, Illinois; and Overland Park, Kansas to determine if COBRA
premium assistance materials or other assistance were available. Three of the four
One-Stop Centers we visited did not have COBRA premium assistance-related
materials readily available and the staff at these centers was generally not aware of the
program nor could they tell us where to find information regarding COBRA premium
assistance.

These shortcomings occurred primarily because there was no follow-up control in place
to monitor the One-Stop Centers and ensure the material was made available. Both
ETA and the State Workforce Agencies monitor the One-Stop Centers operations but
neither had made provisions to check on the availability of COBRA premium assistance
material.

According to EBSA, one of the four One-Stop Centers we visited had not yet received
their distribution of COBRA premium assistance flyers, posters and other material from
EBSA. EBSA’s distribution lasted into July 2009 and these One-Stop Centers were in
the later mailings. However, we made second visits to the same One-Stop Centers in


                                                         EBSA Could Improve ARRA Processes
                                            6                   Report No. 18-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General 



August 2009, after EBSA’s distributions were made, and found that only one had
improved and had COBRA premium assistance-related material available.

One-Stop Centers are not required to have COBRA premium assistance material
available. However, One-Stop Centers are a focal point for workers laid-off from their
jobs and could be an excellent partner in EBSA’s outreach efforts. One of the intents of
the Notice, which ETA issued to State and local agencies, was to raise awareness of
the program. It is important to have COBRA premium assistance-related information
and materials readily available at One-Stop Centers since they are a major contact point
for employers and dislocated workers. While primary notification responsibility lies with
the employer, having the information available at One-Stop Centers would help ensure
that eligible individuals are fully informed about available assistance.

EBSA officials stated that EBSA discussed this finding with ETA and ETA had agreed to
issue a change to the Training and Employment Notice to clarify that the One-Stop
Centers should display EBSA’s COBRA flyers and materials to inform dislocated or
unemployed workers about the new COBRA provisions. ETA also agreed to host a joint
webinar with EBSA for the One-Stop staff to enhance outreach and information efforts,
and will request that ETA regional office staff, on their regular monitoring visits to local
areas, check to determine whether information on the COBRA premium reduction is
available. Furthermore, EBSA staff is following up with all the One-Stops to find out if
they need additional flyers for distribution.

Enforcement Results

EBSA was not collecting and using information from its enforcement investigations to
assess its COBRA premium assistance outreach efforts. EBSA officials did not see any
need to separately identify ARRA violations or use this information to assess outreach
efforts. Such information, however, could provide valuable feedback to OPA on the
effectiveness of EBSA’s outreach program.

EBSA’s Office of Enforcement (OE) conducts investigations of employee benefit plans,
including health plans, as part of its responsibilities under the Employee Retirement
Income Security Act of 1974. During these investigations, EBSA examines a plan’s
compliance with many individual requirements; including the eligibility notification
requirements established when COBRA was originally enacted in 1986. The results of
each investigation, including any COBRA notice violations, were recorded in EBSA’s
Enforcement Management System.

In June 2009, OE issued a memorandum to its field offices, informing them of the new
COBRA notification requirements related to premium assistance and instructing them to
include the new requirements in their health plan investigations. However, OE did not
establish a process to separately identify ARRA violations and provide the results
related to COBRA premium assistance to OPA.




                                                          EBSA Could Improve ARRA Processes
                                             7                   Report No. 18-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General 



Since ARRA was implemented, EBSA has initiated 173 investigations of health plans
but completed only three of these investigations. None of these three had any
notification violations. We could not determine if any of the other 170 open health plan
investigations had COBRA notification violations because the information is not
recorded until investigations are closed. However, even when the investigations are
complete, EBSA will not know if there are any ARRA violations. This is because EBSA
has not established a means to separately identify ARRA violations or provide this
information to OPA to assess outreach efforts

However, doing so could provide valuable feedback to OPA on the effectiveness of
EBSA’s outreach and education. For example, if in the 170 health plan investigations
noted above, OE found significant non-compliance and furnished this information to
OPA as it was found, OPA could potentially identify why certain employers did not
comply and, if appropriate, direct some outreach or training to the problem. Conversely,
if all 173 investigations showed employer compliance, OPA would have some
assurance employers were aware of their responsibilities.

EBSA officials stated that on September 4, 2009, the Director of Enforcement instructed
the Regional Directors by memorandum to notify OPA if they find any violations in
connection with the requirement to provide ARRA COBRA notices to eligible
participants and beneficiaries.


Objective 2 — Has EBSA established a system to timely review denials of COBRA
              premium assistance?

Finding 2 — EBSA has established a system to timely review denials of COBRA
            premium assistance but could make some improvements.

EBSA had designed and implemented a process to provide review of appeals of
premium assistance denials. As of May 29, 2009, EBSA had received 1,224 appeals.
Our review of 68 randomly selected cases identified only one instance in which EBSA
had not issued its determination within 15 business days after receipt of the completed
application. In this case EBSA had sought and received the applicant’s agreement to
exceed the 15 days while eligibility issues were resolved.

There were areas in the appeals process that EBSA could improve. EBSA had not
developed written resource contingency plans to assure that it could meet the 15-day
deadline for deciding COBRA appeals at potentially increased workload or decreased
resource levels. In addition, the dates recorded on determination letters in EBSA’s
system were unreliable. Finally, EBSA did not state its appeal decision at the beginning
of the determination letters that it sent to appellants, which makes it difficult to locate.

To further improve tracking and measuring its performance for issuing appeal
determinations, EBSA should develop written resource allocation plans; improve the



                                                          EBSA Could Improve ARRA Processes
                                             8                   Report No. 18-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General 



accuracy of the issuance date recorded on determination letters; and re-design the
determination letter sent to appellants.

Contingency Plan

EBSA needs to develop a written resource contingency plan for meeting ARRA appeals
processing requirements. Specifically, EBSA should develop more specific resource
plans to meet the 15-day requirement for a determination if the COBRA appeals
processing workload increases or resources decrease and a backlog occurs. EBSA
should decide and identify from where it would obtain needed resources and the effect
of reassigning those resources to the COBRA appeals process. If this is not done,
EBSA may violate ARRA requirements and/or cause unnecessary disruption in its
services to participants.

ARRA requires EBSA to make a determination on each appeal within 15 days after
receiving a completed appeal application. EBSA officials informed us that EBSA
management committed to devoting whatever resources to COBRA appeals processing
was necessary to meet the 15-day requirement. However, EBSA management has not
specified where it will obtain these resources.

The processing of appeals has added to EBSA’s workload and EBSA will need to
continue to devote resources until the premium assistance program ends. To date, most
of the resources EBSA has needed for appeals processing has come from its
participant assistance staff. According to EBSA, in the first 5 months after ARRA was
passed, this staff had responded to more than 110,000 inquiries concerning ARRA in
addition to its normal workload. Furthermore, we were informed EBSA had added all of
its temporary summer positions and hired 30 additional staff to work in appeals
processing.

EBSA informed us that if COBRA appeals processing workload increased even more or
a backlog of appeals occurred, it would add more participant assistance or investigative
staff to meet the changing COBRA appeals processing workload. However, the
participant assistance program and the investigative program could be adversely
affected if it became necessary to redirect resources from either program to COBRA
appeals processing.

If EBSA has to make this decision, both the participant assistance program and the
investigative program could be adversely affected if it were necessary to redirect
resources from either to COBRA appeals processing. For example, any shifting of more
staff resources from the participant assistance program could cause deterioration in
providing participant assistance. Lessening of resources to participant assistance could
delay responses to participant requests for help, not only in ARRA but other benefit
areas as well. Likewise, a shift of investigative resources from the enforcement program
could adversely affect the number of cases opened and completed. This could reduce
the amount of plan assets restored to plans or benefits obtained for participants.



                                                         EBSA Could Improve ARRA Processes
                                            9                   Report No. 18-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General 



To anticipate these issues and enable affected program management to plan for
potential impact, EBSA needs to be more specific as to where it will obtain the
resources needed should COBRA appeals processing workload require it and prepare a
written resource contingency plan.

EBSA officials informed OIG that while no formal written contingency plan document
was developed, it had considered contingencies and provided guidance to deal with
them. EBSA specifically mentioned its risk mitigation plan, development of a scalable
program, and various meetings and documentation, which EBSA believed provided the
ability to expand staff as the appeals volume increased. Overall, EBSA stated it had
sufficient, well-documented contingency plans and had provided Regional Directors with
the flexibility to deal with unplanned, undesirable events.

OIG agrees with EBSA that Regional Directors should be given flexibility in determining
what resources would be used to deal with COBRA appeals processing if necessary.
However, EBSA officials have not provided OIG with additional information about
contingency plans. We continue to believe more detailed plans regarding possible
resource utilization would help better manage unforeseen workload fluctuations.

EBSA Needs to Capture Accurate Issuance Dates on Determination Letters Mailed to
Appellants

EBSA was not accurately capturing the issuance date of determination letters mailed to
appellants in its management information database. While the actual determination
date was recorded accurately, the date of the letter informing the appellant of the
decision was sometimes missing or dated before the actual determination. This
occurred because the system had to be changed for ARRA and controls were not
established to ensure the accuracy of the issuance date shown on the filed copy of the
determination letter. As a result, EBSA could not demonstrate that appellants were
timely notified after final determinations were made.

EBSA modified its existing Technical Assistance Information System (TAIS) to record
and process the COBRA premium assistance appeals information. This is the
information system EBSA used to record and track participant assistance inquiries
under EBSA’s participant assistance program. A new module was added to TAIS for the
ARRA appeals which recorded and tracked the date each appeal was received, its
progress through EBSA, the final determination decision and date, and the notification
letters sent to employers and appellants. EBSA also used management reports from
TAIS to monitor its compliance with ARRA’s requirement to make appeal determinations
within 15 days.

While the TAIS system stored copies of the determination letters mailed to appellants, it
did not ensure these letters contained accurate issuance dates. Based on the initial
determination made by EBSA, the TAIS system electronically created, dated, and
stored a determination letter to be mailed to the appellant. However, this appeal
decision was not finalized and the determination letter was not mailed to the appellant


                                                         EBSA Could Improve ARRA Processes
                                           10                   Report No. 18-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General 



until the initial decision had received a secondary review and concurrence within EBSA.
The processing time for this secondary review could cause the automatically prepared
determination letter to pre-date the actual decision date and/or the actual mailing date.
In these cases it was up to EBSA personnel to revise the date shown on the
determination letter stored in TAIS.

This was not always being done. In 18 out of 68 (26 percent) randomly selected
appeals we reviewed, the determination letter issuance date preceded the actual
determination date. Another 10 (15 percent) of the determination letters in our audit
sample contained no issuance date. According to EBSA, these errors occurred because
staff neglected to revise the date or removed the incorrect date on the electronically
stored copy of the letter and hand-stamped the copy that was printed and mailed to the
appellant. As a result, although EBSA could show that it was making appeal decisions
in a timely manner, it could not show when it actually notified appellants of its decisions
nor demonstrate that it was doing so in a timely manner. Notifying appellants of its
decisions in a timely manner is important to assure that individuals do not lose or drop
coverage because they lack information on their eligibility for premium assistance.

EBSA officials informed OIG that EBSA has modified the TAIS to prevent future date
discrepancies. EBSA made the observation that the date information OIG found
unreliable was never used in calculating whether EBSA complied with the 15-day
requirements.

Appeal Decision Obscured in Letter to Appellants

EBSA’s appeal determination is difficult to locate in the letter sent to appellants. As a
result, it may be difficult for some appellants to clearly understand EBSA’s decision.

In each appeal case, EBSA informs both the employer and the appellant of its decision
on the appellant’s eligibility for COBRA premium assistance. EBSA sends a letter to
each party informing each of its determination.

EBSA’s letter to the employer contains EBSA’s decision in the second sentence of the
letter. For example, a letter granting the assistance states:

       Enclosed please find a Determination letter issued by the Department of
       Labor on behalf of the applicant listed above.

       According to the information provided, the Department of Labor has
       determined that the applicant is ELIGIBLE for the ARRA COBRA premium
       assistance.

The letter to the appellant was more confusing. The letter began with four paragraphs
that explained ARRA and the eligibility criteria for premium assistance. EBSA’s actual
appeal decision was contained in the fifth paragraph, twelfth sentence. In most cases,
this placed EBSA’s decision at the bottom on the first page or, as in many cases, the


                                                          EBSA Could Improve ARRA Processes
                                             11                  Report No. 18-09-003-12-001
                                       U. S. Department of Labor – Office of Inspector General 



second page. Although the decision was capitalized and bolded, as in the employer’s
letter, the location of EBSA’s stated decision in appellant letters could make this key
information more difficult to locate than if it was provided earlier in the letter.

EBSA officials did not believe that recipients of its letters had any difficulty in locating
the determination as the letters included the required statement of eligibility in bold type.
However, EBSA stated it had revised the letters to reflect the opinion of the auditors by
amending the subject line to indicate the determination made.

Recommendations

We recommend that the Assistant Secretary of the EBSA direct staff to do the following:

   1. Coordinate with ETA to include COBRA premium assistance information
      availability in both its and State Workforce Agency’s monitoring to ensure One-
      Stop Centers have COBRA premium assistance information available to workers.

   2. Use feedback from enforcement investigations to help assess outreach efforts.

   3. Develop a written contingency plan with more specific resource plans for meeting
      the 15-day requirement.

   4. Establish controls to ensure that dates on determination letters received by
      applicants match the determination dates in the TAIS.

   5. Revise its current version of the final determination letter by moving up the
      notification of its decision to the beginning of appellants’ letters to make it easier
      for appellants to locate.




Elliot P. Lewis
Assistant inspector General
 for Audit




                                                           EBSA Could Improve ARRA Processes
                                             12                   Report No. 18-09-003-12-001
               U. S. Department of Labor – Office of Inspector General 





Appendices 





                                   EBSA Could Improve ARRA Processes
                     13                   Report No. 18-09-003-12-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                             EBSA Could Improve ARRA Processes
               14                   Report No. 18-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General 



                                                                               Appendix A
Background

ARRA was signed into law by the President on February 17, 2009, to preserve and
create jobs, promote economic recovery, and assist those most impacted by the
recession. Division B, Title III of ARRA provides for premium assistance and additional
time for election of health benefits continuation under COBRA.

COBRA gives workers and their families who lose their health benefits the right to
continue health benefits at group health rates. The coverage is continued by their group
health plan for limited periods of time under certain circumstances such as voluntary or
involuntary job loss, reduction in the hours worked, transition between jobs, death,
divorce, and other life events. Under COBRA, workers and their families must generally
pay the full premium and may pay an additional two percent for administrative costs.

Under ARRA, eligible individuals pay only 35 percent of their COBRA premiums and the
remaining 65 percent is reimbursed to the coverage provider through a tax credit. The
premium assistance applies to periods of health coverage beginning on or after
February 17, 2009, and lasts for up to 9 months for those eligible for COBRA during the
period beginning September 1, 2008, and ending December 31, 2009. The COBRA
eligibility must be due to an involuntary termination of employment that occurred during
that period.

ARRA requires the Secretary of Labor in consultation with the Secretary of the Treasury
and the Secretary of HHS to provide outreach. This outreach is to consist of public
education and enrollment assistance relating to COBRA premium assistance provided
under ARRA. Such outreach is to target employers, group health administrators, public
assistance programs, States, insurers, and other entities as determined appropriate.

Within the DOL, EBSA has the responsibility to implement the COBRA-related
provisions of ARRA.

Under ARRA, eligibility for COBRA premium assistance is initially determined by the
employer. ARRA allows an individual whose employer denies premium assistance to
appeal that denial to EBSA or HHS. EBSA handles appeals related to private sector
employers with 20 or more employees. HHS handles appeals for Federal, State, and
local governmental employees and appeals related to private sector employers with less
than 20 employees subject to State continuation laws.

When EBSA receives an appeal, EBSA obtains information from the employer and the
individual, reviews the appeal and information obtained, and makes a determination on
the individual’s eligibility. EBSA is required to make this determination within 15 days
after receipt of the individual’s completed application.




                                                         EBSA Could Improve ARRA Processes
                                           15                   Report No. 18-09-003-12-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                             EBSA Could Improve ARRA Processes
               16                   Report No. 18-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General 



                                                                               Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our overall audit objectives were to answer the following questions:

        1. Has EBSA provided outreach related to COBRA premium assistance?

        2. Has EBSA established a system to timely review appeals of premium
           assistance denials?

Scope

The audit covered EBSA practices, policies, and procedures — in place or planned as
of May 31, 2009 — to comply with ARRA.

We examined EBSA’s outreach program related to ARRA, including model eligibility
notifications to employers and public education and enrollment assistance to eligible
individuals and employers. We conducted interviews with EBSA officials from the Office
of Health Plan Standards and Compliance Assistance, OPA, and OE to gain an
understanding and the status of the ARRA efforts. We reviewed the model notices and
training and outreach materials. We visited one One-Stop Center in each of the
following States — California, Illinois, Kansas, and Washington to determine if
ARRA-related materials were available. We also reviewed the websites of these States
for ARRA-related material. We conducted a telephone survey of selected organizations
to determine the usefulness of COBRA premium assistance materials distributed by
EBSA.

We examined EBSA’s COBRA appeals process developed to comply with ARRA. We
conducted interviews with EBSA officials from OPA and obtained polices and
procedures and observed appeals processing. We examined and tested a random
sample of 68 out of 1,224 of EBSA’s COBRA appeals received through May 29, 2009,
to determine if EBSA processed the appeals in a timely manner and if EBSA’s decision
was supported by the documentation.

We conducted our fieldwork at EBSA’s headquarters in Washington, D.C. We also
visited One-Stop Centers in San Francisco, California; Renton, Washington; Chicago,
Illinois; and Overland Park, Kansas.

Methodology

To accomplish our audit objectives, we obtained an understanding of the ARRA, which
sets forth EBSA’s responsibilities for (1) outreach to educate the employers and
individuals about the availability of COBRA Premium Assistance, and (2) expedited
reviews of denials of COBRA premium assistance in cases where employees file an


                                                         EBSA Could Improve ARRA Processes
                                           17                   Report No. 18-09-003-12-001
                                       U. S. Department of Labor – Office of Inspector General 



appeal when they have been denied COBRA premium assistance under ARRA. We
also reviewed EBSA’s policies and procedures, memorandums, and other documents
implementing EBSA’s ARRA responsibilities.

We reviewed Model Notices and other outreach and training materials developed by
EBSA to inform the public about the COBRA Premium Assistance available under
ARRA.

We interviewed EBSA officials from the Office of Health Plan Standards and
Compliance Assistance, OPA, and OE to obtain an understanding of the educational
and outreach program for COBRA premium assistance under ARRA and coordination of
outreach and education responsibilities with HHS and Treasury.

We reviewed and assessed internal controls used by EBSA for outreach related to the
COBRA premium assistance available under ARRA, and for the review of appeals of
COBRA premium assistance denials.

To achieve our objectives we relied on computer-generated data contained in EBSA’s
TAIS system. We assessed controls and conducted tests of the data. Based on these
tests, we considered the data to be materially accurate for purposes of meeting our
audit objectives.

We judgmentally selected and conducted a phone survey of 7 of 42 Employee Benefit
Organizations to whom EBSA has distributed COBRA premium assistance information
to determine if the information was useful and if the organization made the information
available to individual members.

Based on proximity to OIG offices and staff, from more than 3,200 One-Stop Centers,
we judgmentally selected and visited one One-Stop Center in each of the following
cities — San Francisco, CA; Renton, WA; Chicago, IL; and Overland Park, KS, to
determine if COBRA premium assistance materials were available. We also reviewed
these States’ workforce agency websites for availability of information about the
COBRA premium assistance under ARRA.

We reviewed a statistically valid random sample of appeals processed to determine if
EBSA processed these requests in a timely manner and to determine if EBSA’s
decision to overturn or sustain the employers’ denials of employees’ requests for
COBRA premium assistance available under ARRA was supported by the
documentation.

The statistical sampling universe was defined as appeals EBSA received through
May 29, 2009. We used a random sampling method with stratified design to provide
effective coverage of the appeals and to obtain precise estimates of the characteristics
tested. Each appeal was tested for multiple characteristics as discrete variables. An
explanation of the audit test results and relevance of the tests to the audit's objectives is
provided in the body of the audit report. We used 95 percent confidence limits.


                                                           EBSA Could Improve ARRA Processes
                                             18                   Report No. 18-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General 




We stratified the universe of 1,224 appeals by type of filing (electronic, mail, fax, or
other), and selected a random sample of 68 appeals among the strata. Our sample test
results were not projected since no errors were found.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other requirements. Our work on internal controls included obtaining
and reviewing policies and procedures and interviewing key personnel. We gained an
understanding of EBSA’s processes relative to our audit objectives and documented a
description of the controls. Our testing of internal controls focused only on the controls
related to our objectives of assessing compliance with significant laws, regulations, and
policies and procedures. We did not intend to form an opinion on the adequacy of
internal controls overall, and we do not render such an opinion.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audits to obtain sufficient and appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provided a reasonable basis for our findings and conclusions based
on our audit objectives.

Criteria

We used the following criteria to accomplish our audit:

      America Recovery and Reinvestment Act of 2009
      Consolidated Omnibus Budget Reconciliation Act of 1985
      Internal Revenue Service Notice 2009-27
      Training and Employment Notice 42-08




                                                          EBSA Could Improve ARRA Processes
                                            19                   Report No. 18-09-003-12-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                             EBSA Could Improve ARRA Processes
               20                   Report No. 18-09-003-12-001
                                 U. S. Department of Labor – Office of Inspector General 



                                                                           Appendix C 

Acronyms and Abbreviations 


ARRA             American Recovery and Reinvestment Act of 2009

DOL              Department of Labor

EBSA             Employee Benefits Security Administration

ETA              Employment and Training Administration

COBRA            Consolidated Omnibus Budget Reconciliation Act of 1985

OIG              Office of Inspector General

HHS              Department of Health and Human Services

OE               Office of Enforcement

OPA              Office of Participant Assistance

TAIS Technical             Assistance Information System




                                                     EBSA Could Improve ARRA Processes
                                         21                 Report No. 18-09-003-12-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                             EBSA Could Improve ARRA Processes
               22                   Report No. 18-09-003-12-001
                   U. S. Department of Labor – Office of Inspector General 



                                                             Appendix D
Auditee Response




                                       EBSA Could Improve ARRA Processes
                         23                   Report No. 18-09-003-12-001
U. S. Department of Labor – Office of Inspector General 





                    EBSA Could Improve ARRA Processes
      24                   Report No. 18-09-003-12-001
U. S. Department of Labor – Office of Inspector General 





                    EBSA Could Improve ARRA Processes
      25                   Report No. 18-09-003-12-001
U. S. Department of Labor – Office of Inspector General 





                    EBSA Could Improve ARRA Processes
      26                   Report No. 18-09-003-12-001
U. S. Department of Labor – Office of Inspector General 





                    EBSA Could Improve ARRA Processes
      27                   Report No. 18-09-003-12-001
U. S. Department of Labor – Office of Inspector General 





                    EBSA Could Improve ARRA Processes
      28                   Report No. 18-09-003-12-001
U. S. Department of Labor – Office of Inspector General 





                    EBSA Could Improve ARRA Processes
      29                   Report No. 18-09-003-12-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                             EBSA Could Improve ARRA Processes
               30                   Report No. 18-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General 



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Charles Allberry (Audit Director), Ralph McClane, Steve
Chiang, Richard Bryan, Tim Kerschen, Mark Wood and Mary Lou Casazza.




                                                          EBSA Could Improve ARRA Processes
                                             31                  Report No. 18-09-003-12-001
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                             EBSA Could Improve ARRA Processes
               32                   Report No. 18-09-003-12-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT: 


Online: http://www.oig.dol.gov/       hotlineform.htm
Email: hotline@         oig.dol.gov

Telephone:			   1-800-347-3756
                202-693-6999

Fax: 	          202-693-7020

Address: 	      Office of Inspector General
                U.S. Department of Labor
                200 Constitution Avenue, N.W.
                Room S-5506
                Washington, D.C. 20210
